Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




DIETARY SUPPLEMENT LABELS:
       KEY ELEMENTS




                     JANET REHNQUIST
                     INSPECTOR GENERAL

                      MARCH 2003
                      OEI-01-01-00120
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                 EXECUTIVE                           SUMMARY

OBJECTIVE

    To identify key elements that can increase the potential for dietary supplement labels to help
    consumers make informed and appropriate choices about supplement use.

BACKGROUND

    In 1994, Congress passed the Dietary Supplement Health and Education Act (DSHEA).
    DSHEA defined the term “dietary supplement” to include substances, such as vitamins,
    minerals, botanicals, and amino acids. The Food and Drug Administration (FDA) has primary
    oversight responsibilities for dietary supplements and their labels.

    Widespread Use of Dietary Supplements. An estimated 70 percent of the U.S. population,
    or 152 million people, tried at least one dietary supplement in 2001. Dietary supplements are
    nearly a $17 billion industry.

    Benefits and Risks of Dietary Supplements. Dietary supplements have potential health
    benefits, but may also pose safety risks. For example, calcium and vitamin D supplementation
    can help to reduce bone loss in the elderly. Yet, FDA has also received reports of adverse
    events associating ephedra with heart attacks, strokes, seizures, and high blood pressure.

    Importance of Dietary Supplement Labels. In DSHEA, Congress recognized the
    importance of labels, calling for them to include information, such that “consumers may make
    informed and appropriate health care choices for themselves and their families.” Labels can be
    particularly significant, given that dietary supplements are often used as self-care products, and
    labels are an easily accessible source of information. Furthermore, label oversight is a key
    regulatory tool for FDA to promote the safe use of dietary supplements among consumers.

    Concerns about Dietary Supplement Labels. Our 2001 report entitled Adverse Event
    Reporting for Dietary Supplements: An Inadequate Safety Valve (OEI-01-00-00180)
    highlighted the need for consumers to have more complete information about dietary
    supplements than is currently required. In 2000, the General Accounting Office cited problems
    with label content for dietary supplements.

    Consumer Health Information for Better Nutrition Initiative. In December 2002, FDA
    announced the Consumer Health Information for Better Nutrition Initiative, which seeks to
    enhance the credibility of food and dietary supplement labels through the inclusion of more
    accurate, science-based information. This multi-part initiative includes the publication of
    guidance on qualified health claims for conventional foods and dietary

                                                 i
         supplements, strong enforcement of dietary supplement rules, and the establishment of an FDA
         task force on consumer health information for better nutrition.

         This Report. Given the limited requirements governing dietary supplement labels, FDA
         officials have expressed an interest in our presenting a vision for the kind of label that could
         better assist consumers in making informed and appropriate choices about supplement use.
         Thus, we consulted a wide variety of stakeholders, reviewed the pertinent literature, and then
         developed a template of key label elements.

         The template uses the existing requirements for dietary supplement labels as a starting
         framework (see the primer on page 4). We then incorporated the feedback we heard from 76
         interviews with key stakeholders, such as regulators, industry representatives, and consumer
         groups, and from 7 focus groups with consumers and health professionals. We also took into
         account data from industry groups and independent research organizations, and conducted a
         comprehensive literature review on dietary supplement use and labels, including congressional
         testimony and national survey data.

         The template also serves as the framework for a companion report, Dietary Supplement
         Labels: An Assessment (OEI-01-01-00121).


KEY ELEMENTS OF A DIETARY SUPPLEMENT LABEL

         Below, we present our template of key elements of a dietary supplement label that can help
         consumers make informed and appropriate choices about supplement use.

Label Content:

         U Ingredients. It would fully and clearly disclose the ingredients contained in a supplement.
         The ingredient declaration would accurately reflect the amount of each dietary ingredient
         included in the supplement.

         U Intended Use. It would provide consumers with sufficient information about the range of
         uses for a supplement. All intended use claims would be based on accepted scientific evidence.

         U Safety Information. It would provide consumers with known safety information. This
         would include interactions, contraindications, and possible side effects and adverse reactions.

         U Directions for Use. It would provide consumers with adequate directions for use. The
         directions would include guidance on proper doses, if the information is available.

         U Product Information. It would identify the manufacturer, production source and batch,
         and information about the net quantity of contents found in the supplement.


Dietary Supplement Labels: Key Elements              ii                                    OEI-01-01-00120
Label Presentation:

         U Standardized Format. It would present similar types of information in a similar order
         across supplements. It would use widely accepted terminology and headings.

         U Distinct Product Features. It would have a unique design, format, or specific language
         that assists consumers in distinguishing supplements from other self-care products.

         U Readability. It would contain language and visual cues that are easily understood by a
         broad group of consumers.

         U Balance. It would present information in a balanced manner. It would give fair treatment
         to benefits and risks, to claims and disclaimers, and to factual and marketing information.

         U Constructive Use of Space. It would seek to expand the limited label space through
         creative packaging and by pointing consumers to alternative sources of information.

CONCLUSION

         This template sets forth a vision of key elements that can increase the potential of dietary
         supplement labels to help consumers make informed and appropriate choices about supplement
         use. It is a vision that appears to have considerable support among the wide range of
         stakeholders whom we interviewed. We recognize that this template is general and that it
         leaves out many important details concerning specific expectations or requirements for
         supplement labels. It does, however, put forth a framework that government officials,
         consumer groups, industry representatives, academics, and others can use as they seek to find
         common ground on the specific content and presentation of labels.

         For an assessment of the extent to which existing dietary supplement labels reflect the elements
         identified in this template, see our companion report, Dietary Supplement Labels: An
         Assessment (OEI-01-01-00121).




Dietary Supplement Labels: Key Elements             iii                                   OEI-01-01-00120
                           TABLE                          OF              CONTENTS

                                                                                                                                       PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


PRIMER ON DIETARY SUPPLEMENT LABELS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


KEY ELEMENTS OF A DIETARY SUPPLEMENT LABEL . . . . . . . . . . . . . . . . . . . . . . . . 5


          Template . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Label content . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Label presentation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDICES


          A: Advertisements for dietary supplements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          B: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          C: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





Dietary Supplement Labels: Key Elements                                                                                    OEI-01-01-00120
                                   INTRODUCTION

OBJECTIVE

         To identify key elements that can increase the potential for dietary supplement labels to help
         consumers make informed and appropriate choices about supplement use.

BACKGROUND

         In 1994, Congress passed the Dietary Supplement Health and Education Act (DSHEA).
         DSHEA defined the term “dietary supplement” to include substances, such as vitamins,
         minerals, botanicals, and amino acids. It also created a new regulatory framework for dietary
         supplements and expanded the information that could be placed on labels. The Food and Drug
         Administration (FDA) has primary oversight responsibilities for dietary supplements and their
         labels.

Widespread Use of Dietary Supplements

         An estimated 70 percent of the U.S. population, or 152 million people, tried at least one dietary
         supplement in 2001.1 Many consumers use supplements to enhance their nutritional intake or to
         maintain their health and well-being, while others hope to improve their energy levels and to
         prevent or treat common illnesses. The dietary supplement industry has responded to consumer
         demand by marketing an increasing number and variety of supplements. FDA estimates that
         about 29,000 dietary supplements are on the market.2 Dietary supplements are nearly a $17
         billion industry.3

Benefits and Risks of Dietary Supplements

         The growth of the dietary supplement market presents greater potential for consumers to
         experience the benefits of supplement use, and at the same time increases the chance that
         consumers will encounter safety risks. For example, the long-term consumption of vitamin C
         supplements may reduce the development of age-related lens opacities, and dietary calcium and
         vitamin D supplementation may help to reduce bone loss in the elderly. Yet, FDA has also
         received reports of adverse events associating ephedra with heart attacks, strokes, seizures,
         and high blood pressure, and kava kava with liver damage.

Importance of Dietary Supplement Labels

         In DSHEA, Congress recognized the importance of labels, calling for them to include
         information, such that “consumers may make informed and appropriate health care choices for
         themselves and their families.” Within FDA, the Center for Food Safety and Applied Nutrition
         (CFSAN) has the authority to regulate supplements by issuing labeling

Dietary Supplement Labels: Key Elements              1                                     OEI-01-01-00120
        rules and good manufacturing practice (GMP) regulations to the dietary supplement

        industry and by monitoring adverse events related to supplement use. However, supplement-

        specific GMP regulations have not been issued, and the adverse event reporting system is still

        being enhanced. Therefore, label oversight can serve as a key regulatory tool for promoting the

        informed and appropriate use of dietary supplements among consumers. 


        It is especially important for labels to provide objective and accurate information on supplement

        usage to balance the claims about supplements that consumers learn about through

        advertisements. In our brief review of advertisements, which are regulated by the Federal

        Trade Commission (FTC), we found dietary supplements claiming to bring relief from crippling

        pain within days and herbal weight loss formulas claiming to help individuals lose 70 pounds in 8

        weeks with no calorie counting and no hunger (see Appendix A for a fuller description of the

        advertisements). 


Concerns about Dietary Supplement Labels

        Our 2001 study entitled Adverse Event Reporting for Dietary Supplements: An Inadequate
        Safety Valve (OEI-01-00-00180) highlighted the need for consumers to have more complete
        information about dietary supplements than is currently required. In 2000, the General
        Accounting Office (GAO) cited similar problems with dietary supplement labels.4 Concerns
        have also been raised by consumer and industry groups, federal and state regulators, and the
        media.

Consumer Health Information for Better Nutrition Initiative

        In December 2002, FDA announced the Consumer Health Information for Better Nutrition
        Initiative, which seeks to enhance the credibility of food and dietary supplement labels through
        the inclusion of more accurate, science-based information. This multi-part initiative includes the
        publication of guidance on qualified health claims for conventional foods and dietary
        supplements, strong enforcement of dietary supplement rules, and the establishment of an FDA
        task force on consumer health information for better nutrition. In a report on dietary supplement
        enforcement, which accompanied the announcement of the initiative, FDA stated its intention to
        develop mechanisms to communicate critical information and useful strategies about dietary
        supplements to consumers.5

Methodology

         Given the limited requirements governing dietary supplement labels, FDA officials have
         expressed an interest in our presenting a vision for the kind of label that could better assist
         consumers in making informed and appropriate choices about supplement use. Thus, we
         consulted a wide variety of stakeholders, reviewed the pertinent literature, and then developed
         a template of key label elements. The template we developed can provide FDA with a starting
         point for a mechanism to communicate critical information and useful strategies about dietary
         supplements to consumers.
Dietary Supplement Labels: Key Elements               2                                      OEI-01-01-00120
         The template uses the existing requirements for dietary supplement labels as a starting
         framework (see the primer on page 4). We then incorporated the feedback we heard from 76
         interviews with key stakeholders, such as regulators, industry representatives, and consumer
         groups, and from 7 focus groups with consumers and health professionals. We also took into
         account data from industry groups and independent research organizations, and conducted a
         comprehensive literature review on dietary supplement use and labels, including congressional
         testimony and national survey data.

         Throughout the course of our inquiry, we refined and adjusted the template to incorporate the
         diversity of perspectives that we encountered. The template represents broad consensus
         among those we interviewed as to key label elements.

This Report and its Companion Report

         This report identifies key elements that can increase the potential for dietary supplement labels
         to help consumers make informed and appropriate choices about supplement use, and
         organizes those elements into a template. The template draws on existing requirements for
         dietary supplement labels, feedback from interviews and focus groups, industry data, and the
         professional literature.

         In our companion report, Dietary Supplement Labels: An Assessment (OEI-01-01-00121),
         we assess the extent to which current dietary supplement labels meet the potential expressed in
         the template outlined in this report. We also examine barriers that may prevent supplement
         manufacturers from developing labels that incorporate the elements of our template, and note
         potential consequences to consumers and health professionals of maintaining the current label
         requirements for dietary supplements.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Dietary Supplement Labels: Key Elements              3                                      OEI-01-01-00120
           PRIMER ON DIETARY SUPPLEMENT LABELS
What is a Dietary Supplement?
The Dietary Supplement Health and Education Act of 1994 (DSHEA) defines the term “dietary supplement” to mean
a product (other than tobacco) intended to supplement the diet that bears or contains one or more of the following
dietary ingredients: a vitamin, a mineral, an herb or other botanical, an amino acid, a dietary substance for use by man
to supplement the diet by increasing the total dietary intake, or a concentrate, metabolite, constituent, extract, or
combination of any of the aforementioned ingredients. Furthermore, a dietary supplement must be labeled as a
dietary supplement and be intended for ingestion and must not be represented for use as conventional food or as a
sole item of a meal or of the diet. In addition, a dietary supplement cannot be approved or authorized for
investigation as a new drug, antibiotic, or biologic, unless it was marketed as a food or a dietary supplement before
such approval or authorization. Under DSHEA, dietary supplements are deemed to be food, except for purposes of
the drug definition.

What is a Dietary Supplement Label?
A‘label’ is a display of written, printed, or graphic matter upon the immediate container of any article. In contrast,
‘labeling’ is a more general term that includes the label and other written, printed, or graphic matter upon any article
or any of its containers or wrappers, or accompanying the article.

What is Required on a Dietary Supplement Label?
DSHEA and other federal regulations require the following information to appear on dietary supplement labels:

 C	 a statement of identity that contains the words                   C	 a complete list of ingredients by their common or
    “dietary supplement.” The word “dietary” may be                      usual names, either in descending order of
    replaced by the name of the dietary ingredient (e.g.,                prominence or with the source of the dietary
    “ginseng supplement”);                                               ingredient in the “Supplement Facts” panel
                                                                         following the name of the dietary ingredient (e.g.,
 C net quantity of contents (e.g., “60 capsules”);                       calcium (from calcium carbonate));

 C	 nutrition information in the form of a “Supplement                C	 safety information that is considered “material” to
    Facts” panel, including the product serving size, the                the consequences that may result from the use of
    amount, and percent daily value, if established, of                  the supplement;
    each dietary ingredient;
                                                                      C	 the disclaimer “This statement has not been
 C	 if a supplement contains a proprietary blend, the net                evaluated by the Food and Drug Administration.
    weight of the blend as well as a listing of each                     This product is not intended to diagnose, treat,
    ingredient in descending order of weight must be                     cure, or prevent any disease” if the supplement
    identified;                                                          bears a claim to affect the structure or function of
                                                                         the body (structure/function claim), a claim of
 C the part of the plant used, if an herb or botanical;                  general well-being, or a claim of a benefit related to a
                                                                         classical nutrient deficiency disease.
 C	 the name and place of business of the manufacturer,
    packer, or distributor;
At their discretion, manufacturers may add additional information on labels (such as claims and statements of quality
assurance), and may decide on the placement of that information on their labels.

Who Oversees Dietary Supplement Labels?
The Food and Drug Administration (FDA) is the federal agency primarily responsible for regulating dietary
supplements and their labels. FDA regulates supplements in a post-market system, meaning manufacturers are
allowed to market supplements without prior authorization. FDA has the burden of proof to show that a supplement
presents a significant or unreasonable risk of illness or injury if taken as instructed on the label, or is otherwise
adulterated. FDA also has the burden of proof to show that label information is misleading or not true. To establish
proof, FDA conducts field exams, tests supplement ingredients, and reviews label claims. As necessary, FDA may
take actions through courtesy letters, warning letters, recalls, seizures, and injunctions.


Dietary Supplement Labels: Key Elements                           4                                                 OEI-01-01-00120
                           KEY ELEMENTS OF A
            DIETARY SUPPLEMENT LABEL

         We defined the key elements of a dietary supplement label to be those that can help consumers
         make informed and appropriate choices about supplement use. This definition comes from
         DSHEA, in which Congress called for labels to contain information, such that “consumers may
         make informed and appropriate health care choices for themselves and their families.” More
         recently, in announcing the FDA’s Consumer Health Information for Better Nutrition Initiative,
         the FDA Commissioner and the Secretary of Health and Human Services have reinforced the
         important role that labels can play in helping consumers make informed choices about the
         products they buy.

         The label on a dietary supplement can fulfill this role by facilitating consumers’ choice of a
         supplement, guiding their use of it, and communicating any safety information associated with it.
         Consumers who have decided to purchase
         a supplement are often faced with a wide
         array of choices. The label can play a role        Roles of the supplement label:
         in helping consumers to select an
         appropriate supplement by providing                U Facilitates product choice
         information about the purposes of the              U Guides use
         supplement, the conditions for which the           U Communicates safety information
         supplement should be taken, and factual
         information about the contents and
         manufacture of the supplement.
         Furthermore, by providing information on possible side effects and potential interactions, the
         label can play an important role in helping consumers to appreciate any risks associated with
         using the supplement. After a consumer selects an appropriate supplement, correct
         administration and dosing are essential. By providing such information, the label can guide
         consumers in the appropriate use of a supplement. Should a consumer experience adverse
         symptoms, the label can play an important advisory role by informing consumers when to stop
         taking a supplement and whom to contact.

         The notion that a label can help consumers make informed and appropriate choices takes on
         heightened significance, given that dietary supplements are self-care products. According to a
         recent national study, consumers would often rather treat their own health conditions than go to
         a doctor.6 While dietary supplements are not approved as a way to treat health conditions,
         close to one-quarter of the population (26 percent) say they have used dietary supplements for
         a health problem.7 According to another national study, 22 percent of adults report using
         vitamins and minerals to treat and prevent serious illnesses, and 14 percent report using herbal
         remedies for this reason. 8 Some consumers even use supplements to treat life-threatening
         conditions, such as cancer.9

Dietary Supplement Labels: Key Elements            5                             OEI-01-01-00120
         Given the limited requirements governing dietary supplement labels, FDA officials have
         expressed an interest in our presenting a vision for the kind of label that could better assist
         consumers in making informed and appropriate choices about supplement use. Thus, we
         consulted a wide variety of stakeholders, reviewed the pertinent literature, and then developed
         a template of key label elements.

         The template uses the existing requirements for dietary supplement labels as a starting
         framework (see the primer on page 4). We then incorporated the feedback we heard from 76
         interviews with key stakeholders, such as regulators, industry representatives, and consumer
         groups, and from 7 focus groups with consumers and health professionals. We also took into
         account data from industry groups and independent research organizations, and conducted a
         comprehensive literature review on dietary supplement use and labels, including congressional
         testimony and national survey data.

         The template sets forth key elements of a dietary supplement label in terms of essential
         information and precepts for presenting that information (see page 7). The template is meant to
         be a general framework that can apply to all types of supplements. The template may serve as
         a mechanism to enhance the potential of the supplement label to communicate information and
         strategies about dietary supplements to consumers.




Dietary Supplement Labels: Key Elements           6                             OEI-01-01-00120
                    TEMPLATE OF THE KEY ELEMENTS FOR A DIETARY SUPPLEMENT LABEL

 Label Content:

 U Ingredients. It would fully and clearly disclose the ingredients contained in a supplement. The ingredient
 declaration would accurately reflect the amount of each dietary ingredient included in the supplement.

 U Intended Use. It would provide consumers with sufficient information about the range of uses for a
 supplement. All intended use claims would be based on accepted scientific evidence.

 U Safety Information. It would provide consumers with known safety information. This would include
 interactions, contraindications, and possible side effects and adverse reactions.

 U Directions for Use. It would provide consumers with adequate directions for use. The directions would
 include guidance on proper doses, if the information is available.

 U Product Information. It would identify the manufacturer, production source and batch, and information about
 the net quantity of contents found in the supplement.



 Label Presentation:

 U Standardized Format. It would present similar types of information in a similar order across supplements. It
 would use widely accepted terminology and headings.

 U Distinct Product Features. It would have a unique design, format, or specific language that assists
 consumers in distinguishing supplements from other self-care products.

 U Readability. It would contain language and visual cues that are easily understood by a broad group of
 consumers.

 U Balance. It would present information in a balanced manner. It would give fair treatment to benefits and risks,
 to claims and disclaimers, and to factual and marketing information.

 U Constructive Use of Space. It would seek to expand the limited label space through creative packaging and
 pointing consumers to alternative sources of information.



Scope of the Template

         The template can serve as a general label framework that has applications to all types of dietary
         supplements, including vitamins and minerals, herbals and botanicals, and specialty
         supplements. Where we determined that label information was relevant to only one type of
         dietary supplement, we note it in the text.

LABEL CONTENT

         The first five elements of the template delineate the major categories of information that our
         analysis found to be key in a dietary supplement label. A label may not be able to help
         consumers make informed and appropriate choices about supplement use, if it does not
         adequately address ingredients, intended use, safety information, directions for use,
Dietary Supplement Labels: Key Elements              7                             OEI-01-01-00120
         and product information. While the vast majority of stakeholders we spoke with agreed
         that these five categories of information are critical, there were differences of opinion in how
         best to incorporate each element into the label. The label is of limited size, and while all of
         these elements ought to be included on the label, we recognize that there may be trade-offs in
         terms of the extent of information that can presented about any single element.

Ingredient Information


        The label would fully disclose the ingredients contained in a supplement. The
        ingredient declaration would accurately reflect the amount of each ingredient
        included in the supplement.

         A dietary supplement label that meets our template would not only disclose the net quantity of
         ingredients, but would also provide information about the quantity and percent of each active
         ingredient. This would be especially relevant to supplements containing multiple ingredients and
         to supplements that are available in different forms and from different sources. The active
         ingredients would have unique names so that consumers would be able to readily recognize
         them. Furthermore, the active ingredients would be easily distinguishable from the inactive
         ones. If a supplement’s bioavailability (extent of absorption into the bloodstream) were known,
         this would be noted on the label.

         An accurate declaration of ingredients is key to maintaining consumer confidence in dietary
         supplements. Consumers would be made aware of any efforts toward standardizing, certifying,
         or producing a dietary supplement according to good manufacturing practices. Because of the
         wide variety of standardization programs currently in use, information would be available to
         consumers about the methods used to standardize or certify a supplement. This information
         need not be on the label itself, but would be available either in a package insert or through a
         toll-free number or website.

         Some stakeholders we interviewed, particularly herbalists and health care providers, stated that
         the labels of herbal supplements ought to contain additional information pertaining to ingredient
         origins and product preparation, because the growing conditions and production processes
         have a direct effect on the level of active ingredient(s) in a dietary supplement. Herbs harvested
         in different parts of the world can contain disparate levels of active ingredients. In addition to
         stating the plant part and species of herb, they would like to see supplements state the country
         in which the ingredient was harvested. Several interviewees told us that they would like
         tinctures to contain information about the extraction process, because the type of solvent used
         to extract an herb can have a substantial impact on the supplement’s potency. Others have
         cautioned, however, that while such information is important, it may be of limited use to the vast
         majority of consumers.




Dietary Supplement Labels: Key Elements            8                              OEI-01-01-00120
Intended Use


        The label would provide consumers with sufficient information about the range of
        uses for a supplement. All intended use claims would be based on accepted
        scientific evidence.

         To meet our template, statements about intended use would address the primary functions and
         purposes of the supplement, a description of how the supplement would result in a health
         benefit, and the conditions and symptoms for which the supplement is intended. FDA currently
         requires benefit statements to be expressed as claims (such as structure/function claims or
         health claims), but that need not be the only format for expressing intended use. Whatever
         mechanism is used to convey intended use, the statements would be specific enough to be
         useful to consumers.

         Intended use statements could go further by helping consumers to understand the roles of key
         active ingredients. Information on the supplement’s purposes could be presented in such a way
         that consumers could associate active ingredients with the primary purposes of the supplement.
         Other self-care products, such as over-the-counter drugs, are required by regulation to present
         active ingredients immediately adjacent and to the left of the purpose statement.

         Ideally, statements of intended use would be based upon accepted scientific evidence.
         Acceptable scientific evidence would be clearly defined, and this definition would be widely
         accepted and adhered to by manufacturers. The definition would delineate the extent and the
         conditions under which intended use claims could be extrapolated from existing research.
         Furthermore, equivalency would be required between the dose supporting an intended use
         claim and the dose administered during the clinical trial. The public would have access to the
         citations for any secondary research upon which the claims are based. Such information could
         be made available though a package insert, website, or toll-free number.

         If labels could express intended use in more than one way, some delineation would exist, such
         that consumers would be able to understand the extent and nature of the federal oversight for
         each. Furthermore, consumers would be able to distinguish among the various types of claims
         used on supplements. Should disclaimers be associated with statements of intended use, these
         disclaimers would be easily recognized and understood by consumers.

         Our stakeholders debated the appropriate place for intended use statements. Some industry
         representatives told us that the basic function of a dietary supplement and types of
         circumstances in which supplements should be consumed could not be conveyed on the label
         because of size limitations. They noted that, instead, such information ought to be conveyed
         through accompanying literature. Other interviewees, including consumers, health professionals,
         and herbal practitioners, believed that intended use statements were not only essential but also
         were feasible to include on supplement labels.



Dietary Supplement Labels: Key Elements           9                             OEI-01-01-00120
         According to recent FDA focus groups, any mention of possible health benefits on a
         supplement label was considered desirable because it told consumers what the supplement was
         for.10 The American Association of Retired Persons (AARP) also found, in its recent survey,
         that information on the label about a supplement’s purposes is very important to consumers.11

Safety Information


        The label would provide consumers with known safety information. This would
        include interactions, contraindications, and possible side effects and adverse
        reactions.

         Safety information on a label that meets our template would include potentially harmful
         interactions between the supplement and prescription drugs, over-the-counter medicines, other
         supplements, and foods; contraindications for certain populations and medical conditions;
         possible side effects and adverse reactions; and a statement telling consumers to stop taking the
         supplement if they experience adverse symptoms. Focus groups conducted by FDA found that
         supplement users are keenly interested in safety information.12 A recent study by AARP
         confirmed this on a national scale.13 Other groups have also called for the inclusion of safety
         information on labels.14

         While most stakeholders we interviewed agreed on the concept of safety information and many
         of the particulars noted above, they disagreed over the extent of safety information necessary
         on a supplement label. Some industry representatives believed that only in very specific
         circumstances should warnings appear on supplements (for example, on supplements containing
         Ephedra and St. John’s Wort, which have been associated with adverse reactions, or
         precautionary statements pertaining to pregnant or lactating women); otherwise it would be
         impractical to list all interactions. Their preferred approach would be to call upon doctors or
         pharmacists to alert consumers to potential interactions. Others believed that safety information
         ought not be included on the label, unless the risks were well-documented in research studies or
         through adverse events.

         Others, particularly consumer advocates, believed that labels ought to list all possible
         interactions. They expressed concerns that health professionals may lack sufficient knowledge
         about supplements to adequately inform consumers of potential interactions or adverse effects.
         Finally, some would like safety information to go even further by including information on
         adverse event reporting. The State of Texas has begun requiring all Ephedra products to
         contain the toll-free number of the FDA’s Medwatch medical product reporting program.
         Others, however, have raised concerns that by including the FDA Medwatch number on a
         supplement label, consumers may perceive it as an implied endorsement of the safety of the
         supplement and may assume an incorrect level of FDA oversight.

         The majority of consumers and health professionals in our focus groups told us that they were
         more comfortable with an explicit warning label, rather than a vague statement, such


Dietary Supplement Labels: Key Elements            10                             OEI-01-01-00120
         as “if you have a health condition, please discuss with your doctor.” Our interviewees tended
         to prefer warnings that mentioned specific medical conditions and that were written in simple
         language. For example, most people liked the Ephedra warning because of its completeness.
         It addresses topics such as contraindications, interactions, maximum dosage, and adverse
         effects.15 A few people, however, told us that having too much information, or too many
         specific references, might either scare consumers or lead them to ignore the warning.

         Stakeholders were split over the need for labels to carry a statement calling for the consumer to
         consult with a health professional before using the supplement. Since supplements are
         technically not considered drugs, some industry representatives believed that carrying a
         precautionary note to discuss usage with a health provider is unnecessary. Others, particularly
         consumer and health providers, believed that labels ought to encourage consumers to discuss
         supplement usage with their health providers, especially if they are taking other medications. A
         recent survey by Prevention Magazine found that 31 percent of consumers take dietary
         supplements in combination with a prescription medicine, and 30 percent of consumers take
         dietary supplements in combination with an over-the-counter product.16

         Despite disagreements about the level of information that ought to be included on supplements,
         all interviewees stated that there ought to be consistency among the warning labels for similar
         supplements. Warnings pertaining to supplement-drug interactions ought to convey similar
         information separately on the drug and the supplement. Furthermore, stakeholders believed
         that requirements for warning statements ought to be harmonized across federal and state
         regulatory agencies.

Directions for Use


        The label would provide consumers with adequate directions for use. The
        directions would include guidance on proper doses, if the information is available.

         Directions for use on a label that meets our template would cover a range of important
         information, including a recommended daily dose, minimum duration of time for which a
         supplement should be taken in order to see results, maximum dose or extent of time for which a
         supplement can be safely taken, and information about how to consume the supplement (e.g.,
         with or without food and liquid). Some groups, including the Commission on Dietary
         Supplement Labels, would also like to see labels direct consumers to use the supplements only
         as recommended on the label.

         Consumer studies have shown that dosage information on labels is of the utmost importance to
         consumers. For example, in a recent survey by Prevention Magazine, consumers reported
         that, of all the information on the label, they are most likely to look for information pertaining to
         recommended dose.17 Consumers in our focus groups told us that when they use a dietary
         supplement, the most important questions to which they



Dietary Supplement Labels: Key Elements              11                               OEI-01-01-00120
         seek answers are: How much of the supplement do they need to take to get the result they are
         looking for? How much is too much?

         Ideally, dose per use and duration of use would be based on the amount of supplement
         necessary to meet the label claims. Consumers would be able to achieve the benefits suggested
         on label claims based on the number of pills in the supplement; if this is not the case, the label
         would clearly indicate the amount of supplement needed to achieve that benefit. Dosage
         information might vary depending on the condition or indication for which the supplement is
         being taken. It might also vary, based on the age of the consumer. Whatever dose is stated on
         the bottle would be clear to consumers; any distinctions between the recommended serving size
         and the recommended daily intake would be obvious. Furthermore, dosage recommendations
         would be standardized across supplements so that identical supplements with similar claims
         would call for equivalent doses.

         To meet our template, the label would also contain any special storage instructions, including
         expiration dates for herbals and other supplements with a finite shelf life. Such information can
         ensure that consumers do not attempt to ingest supplements whose ingredients can no longer
         deliver the desired benefit. According to surveys by Prevention Magazine and AARP,
         consumers consider the expiration date to be a valuable component of the label. 18

Product Information


        The label would identify the manufacturer, production source and batch, and
        information about the net quantity of contents found in the supplement.

         Product information can assist consumers in identifying key attributes about the contents,
         production, and manufacture of a supplement. A label that meets our template would contain
         the name, address, and contact information for the manufacturer. Such information could be
         helpful to consumers, should they have a question about a supplement. Contact information is
         helpful to consumers when it contains a toll-free number or website address through which
         consumers can easily reach the manufacturer. A second important piece of information is the
         net quantity of contents in the bottle or package, expressed in either weight, measure, or
         number. This type of information can help consumers comparison shop among supplement
         brands. Finally, the label would contain a lot number to identify the production source and
         batch. In the case of a product recall, lot numbers could help consumers and manufacturers
         easily identify and track those supplements.

LABEL PRESENTATION

         The second five elements of the template deal with the way in which information is presented on
         a supplement label. While it is key for labels to adequately address ingredient information,
         intended use, safety information, directions for use, and product



Dietary Supplement Labels: Key Elements            12                              OEI-01-01-00120
         information, it is equally important that the information be presented to consumers in a clear and
         meaningful way. In this section we address five general precepts that are key to label design.

Standardized Format


        The label would present similar types of information across supplements in a
        similar order. The label would use widely accepted terminology, headings, and
        titles.

         A standardized label would serve as a “system” for consumers, helping them to interpret
         important information on the label and also assisting them in comparing that information across
         supplements. Furthermore, a standardized label structure would improve consumers’ ability to
         process label information. In both the food and drug areas, stakeholders told us that the
         standardizing of labels has proven to be enormously helpful.

         A standardized dietary supplement label that meets our template would reflect several elements.
         First, it would require that all labels contain similar types of information. Second, it would
         require that information be conveyed across supplements in a consistent manner. The order
         and flow of information, and the format in which that information is displayed, would be
         consistent across supplements. Finally, the language on supplements would also be
         standardized. Important terminology, such as the name of a supplement, would be similar
         across supplements. Headings, which would alert consumers to information, such as product
         safety and recommended dose, would be uniform across supplements.

         The standardized format would need to be well understood by consumers. Because there is a
         limit to how much information consumers can hold in their memory at one time, it is key that the
         amount of information required on labels be congruent with consumers’ ability to retrieve and
         process information. Research suggests that consumers are most likely to engage in a behavior,
         such as reading a label, if they believe they can successfully complete the task.19 Thus,
         consumers would have to find the format easy to use, navigate, and comprehend.

         A standardized label need not mean that there is only one way of presenting information.
         Required information could be presented in one of several standardized formats, depending on
         the type and size of the supplement. For example, FDA’s Center for Drug Evaluation and
         Research has authorized a range of different formats for over-the-counter (OTC) labels,
         depending on the type and size of product.

         While the vast majority of stakeholders we spoke with liked the idea of a standardized label, a
         few dissented. Some pointed out that manufacturers are already hard-pressed to get
         information on labels, and raised concern that requiring yet more information could lead to
         overcrowding on the label. Others pointed out that a standardized format might




Dietary Supplement Labels: Key Elements            13                              OEI-01-01-00120
         encroach upon a manufacturer’s ability to use the label as a marketing tool, because it would
         greatly limit the discretionary space on labels.


Distinct Product Features


        The label would have a unique design, format, or specific language that would
        assist consumers in distinguishing supplements from other self-care products.

         A label that meets our template would contain distinct product features so that consumers could
         distinguish dietary supplements from other types of self-care products. The ability to distinguish
         one type of product from another is key to a consumer’s ability to select appropriate
         supplements. To achieve such a distinction, the dietary supplement label would need to look
         significantly different from other self-care products, such as over-the-counter drugs and
         homeopathic products. For example, supplement labels could have a unique design, shape,
         language, color, or product feature, such as a symbol on the bottle cap. An important factor in
         choosing a distinct product feature for a dietary supplement is that it be one that consumers
         would readily associate with supplements.

         In distinguishing a supplement from other types of products, the label would also carry language
         that clearly communicates to consumers important features about supplement regulation. For
         example, the label could make clear through a disclaimer or some other mechanism that
         supplements are not subject to premarket approval or that FDA has not evaluated their safety
         and effectiveness. We recognize that such statements could call for trade-offs in label
         information. Such a statement, which would need to be in a large enough font and in simple
         language, may come at the expense of other critical information, such as safety information.

Readability


        The label would contain language that is easily understood by a broad group of
        consumers.

         A label that meets our template would be easily understood by consumers. To that end, the
         language must be clear and concise, with a reading level that is suitable for a broad group of
         consumers. The language must be simple enough that it could be understood by lay persons.
         An important component of readability is font size, which needs to be sufficient for a broad
         group of consumers. To increase readability, labels could contain symbols or other visual cues
         to focus the consumer’s attention to important information. Some of our interviewees believed
         that symbols or visual cues, such as a danger sign or red box, could effectively alert consumers
         to safety information. However, others believed that symbols could be problematic, pointing
         out that cues can have different meanings to different people. Thus, were symbols to be
         incorporated into labels, the label redesign would have to be accompanied by public education.


Dietary Supplement Labels: Key Elements            14                              OEI-01-01-00120
         Changes in consumer information needs must be taken into account in assessing how best to
         ensure that labels are read and understood by a broad group of consumers. With continued
         advances in nutrition, medicine, and the study of herbal medicine, labels will have to
         communicate increasingly sophisticated messages on topics, such as directions for use and
         safety information. Changes in American demographics will also have an impact on consumer
         information needs. The elderly, who are large users of supplements, are becoming a larger
         proportion of the population.20 They may have greater difficulty reading a label because of
         poor vision. Finally, as the number and percentage of United States residents, who do not
         speak English as their primary language, increases, labels that can be understood by a wide
         variety of language speakers will become increasingly important.21

Balance


        The label would present information in a balanced manner. It would give fair
        treatment to benefits and risks, to claims and disclaimers, and to factual and
        marketing information.

         A label that meets our template would present a balance between competing types of
         information. For example, the label would give fair treatment to information about a
         supplement’s benefits as well as its risks. The label would include an appropriate balance
         between factual information, as required by FDA label regulations, and marketing information,
         which could include claims, company logo, designs, and images. Finally, space would be
         balanced between claims and disclaimers. This balance would need to be determined on a
         case-by-case basis. In some instances, balance would entail equal space being devoted to both
         kinds of information. In other cases, the amount of space would depend on the level of science
         and knowledge in a particular area. Finally, the placement of information on a label may have
         implications for the extent to which labels accomplish balance. The balance of information is
         key to the informed and appropriate use of any self-care product, and is required in the
         advertising for OTC drugs.

Constructive Use of Label Space


        The label would seek to expand the limited label space through creative packaging
        and pointing consumers to alternative sources of information.

         While the size of a label is an inherently limiting factor to the amount of information that can be
         placed on the label, the placement of that information need not be limited to the primary display
         panel. A label that meets our template would seek to expand the limited space through creative
         packaging.

         Expanded labels hold particular promise for information that is important but not so critical that
         it needs to be on the package label. For example, the following types of information could be
         effectively placed on an expanded label: information about the

Dietary Supplement Labels: Key Elements             15                             OEI-01-01-00120
         scientific legacy of the supplement, including information about the clinical trials; key mechanism
         of action for the active ingredients; additional information about the processing and manufacture
         of a supplement; and the full text of a disclaimer, should a truncated version be used on the
         label.22 In our review of labels, we identified four options for expanding the information
         contained on a dietary supplement label. Below we discuss the options, identifying both
         benefits and potential concerns.

         <	 Innovations to existing label space. Label space can be expanded through innovations,
            such as a “twist-n-turn” label, in which the outer part of the label twists around an inner
            band of information; an “accordian” label, in which the label folds out to be several times its
            size; and a “neck strap” label, in which a tag is attached to the bottle neck. However, these
            labels may get torn off, lost, or malfunction. Consumers may also be overwhelmed by the
            different label forms, resulting in increased confusion and a decreased ability to compare
            supplement labels.

         <	 Inclusion of a package insert. By physically increasing the size of the label or adding a
            package insert, more space can be made available. Yet, in some cases a larger label may
            be impossible, especially for small packages. Some interviewees also cautioned that
            consumers and health providers might not read package inserts.

         <	 Use of outer packaging. By enclosing supplements in boxes or another type of outer
            package, manufacturers can greatly enhance the label space available because the outer
            package becomes an extension of the label. Yet, a large box, which might be necessary to
            carry all the necessary label information, could mislead consumers into thinking that the
            quantity contained in the accompanying bottle is greater than in fact it is. Manufacturers
            also told us that the use of boxes could lead to increased production costs.

         <	 Alternative sources of information. Alternative sources of information could include a
            toll-free number or website. These would be listed on the label and would essentially serve
            as a continuation of the label. Both options hold great promise because they allow for
            potentially unlimited space where manufacturers could disclose pertinent information, such
            as safety precautions. However, consumers must take an additional step on their own
            initiative to get further information. Not all consumers have access to the Internet. Even for
            those who have access to a telephone, some concern exists about bias, because company
            employees would be fielding the calls. Consumers and health professionals told us that it
            would be most helpful for labels to point consumers to a toll-free number staffed by a
            neutral party, such as the National Institutes of Health. Finally, including a website or toll-
            free number on the label raises a host of regulatory oversight issues, as it potentially
            expands the definition of a label.




Dietary Supplement Labels: Key Elements             16                             OEI-01-01-00120
                                      CONCLUSION

         This template sets forth a vision of key elements that can increase the potential of dietary
         supplement labels to help consumers make informed and appropriate choices about supplement
         use. It is a vision that appears to have considerable support among the wide range of
         stakeholders whom we interviewed. We recognize that this template is general and leaves out
         many important details concerning specific expectations or requirements for supplement labels.
         It does, however, put forth a framework that government officials, consumer groups, industry
         representatives, academics, and others can use as they seek to find common ground on the
         specific content and presentation of labels.

         For an assessment of the extent to which existing dietary supplement labels reflect the elements
         identified in this template, see our companion report, Dietary Supplement Labels: An
         Assessment (OEI-01-01-00121).




Dietary Supplement Labels: Key Elements            17                             OEI-01-01-00120
                                                                                         APPENDIX A



              ADVERTISEMENTS FOR DIETARY SUPPLEMENTS


         We discovered these advertisements, which are regulated by the Federal Trade Commission,
         during our review of magazines and newspapers. Supplement A is for a joint health product
         and Supplement B is for a weight loss product. In each case, we were struck by the messages
         and claims conveyed to consumers. We do not disclose the names of the supplements, or the
         individuals who endorse them. Each of the following boxes highlights excerpts from the
         advertisements:


                                           Supplement A


                “...For 20 years, severe bone/joint problems put Celebrity #1 through
                living hell. But three days after he discovered a new breakthrough in
                natural relief from joint problems, the crippling pain was gone. Not
                diminished - gone!

                What was this ‘miracle’ that finally got rid of Celebrity #1’s bone/joint
                agony after 20 years of trying countless medications and treatments?
                Supplement A”




                                               Supplement B


                “...Teacher loses 70 pounds in only 8 weeks easily ... without being
                hungry... after everything else fails her!

                This has become the #1 choice of famous TV and movie stars to lose
                weight ... and the public ... with over 1 million people using it to lose 10
                million pounds.

                Supplement B includes 100 percent natural fat-busting, energizing natural
                nutrients that give your body no choice but to make fat and inches
                disappear like magic.”




Dietary Supplement Labels: Key Elements              18                               OEI-01-01-00120
                                                                                      APPENDIX B



                                          METHODOLOGY


Development of the Template

         Our template represents a synthesis of the feedback we heard during 76 interviews, 7 focus
         groups, and a review of literature pertaining to important characteristics of supplement labels.
         We continuously added to and refined the elements of the template to reflect the diversity of
         perspectives, which we encountered, and particularly notable areas of agreement or
         disagreement. We also shared the template with key stakeholders at various stages of its
         evolution to confirm that it could be a useful and useable construct for them.

         Interviews and Focus Groups

         We conducted 76 interviews with key stakeholders. We spoke with each of the supplement
         industry trade groups, consumer advocacy groups, private quality oversight organizations,
         professional nutrition associations, academic researchers, marketers, and practicing herbalists.
         With each group, we discussed the role of a supplement label in the ideal and current label
         shortcomings, and solicited their recommendations for reform.

         We conducted focus groups with consumers and with health care professionals, and reviewed
         the findings of other focus groups. In cooperation with the Administration on Aging, we led five
         focus groups of elderly consumers who represented a diversity of cultural backgrounds,
         socioeconomic status, health condition, use of supplements, and use of prescription drugs.
         These focus groups took place in Massachusetts, Colorado, and California. We also, in
         partnership with the American Pharmaceutical Association and the American Geriatrics
         Society, conducted two focus groups of geriatricians and gerontologists and two groups of
         pharmacists with diverse geographic locations, practice settings, reliance on labels, and
         experience in advising patients. Finally, we reviewed the findings from 1999 of FDA’s
         consumer focus groups on dietary supplement labels.

         Literature Review

         We reviewed relevant federal legislation, regulation, and program priority documents; position
         papers from consumer and industry groups; articles in peer-reviewed journals and trade press;
         transcripts from congressional hearings and FDA town meetings; and reports from Presidential
         commissions, federal evaluators, and government-sponsored colloquia on dietary supplements.
         We also reviewed consumer-oriented newsletters, books, advertisements, and websites on
         supplement use.



Dietary Supplement Labels: Key Elements            19                              OEI-01-01-00120
                                                                                   APPENDIX B




         We obtained existing data from nationwide surveys on consumer use of dietary supplements
         and supplement labels. We looked at both the raw data and the findings from Prevention
         Magazine’s 1999 and 2000 surveys on dietary supplements, which were based on random
         samples of 2,000 people. In addition, we reviewed the findings of recent surveys from diverse
         federal, professional, academic, and private organizations.

         We also reviewed existing data on the economic characteristics of the supplement industry.
         We obtained statistics from FDA-commissioned research reports and the Nutrition Business
         Journal.




Dietary Supplement Labels: Key Elements          20                             OEI-01-01-00120
                                                                                  APPENDIX C



                                          ENDNOTES


1. Courtesy of Nutrition Business Journal. About 40 percent of the population uses supplements
often, and 30 percent takes them infrequently. Nutrition Business Journal obtained these figures from
a compilation of 13 consumer surveys. Individual consumer surveys, by groups such as the Kaiser
Family Foundation, Yankelovich Partners, the Dietary Supplement Education Alliance, and Prevention
magazine, have found similar patterns in use over the past several years.

2. FDA estimated that the number of supplements on the market may range from 25,000 to 33,000
(29,000 is the midpoint of this range). (Memorandum re: questions concerning dietary supplement
labeling, June 13, 2001)

3. NBJ’s Annual Overview of the Nutrition Industry VI, Nutrition Business Journal (2001), 7

4. General Accounting Office, Food Safety: Improvements Needed in Overseeing the Safety of
Dietary Supplements and 'Functional Foods', GAO/RCED-00-156, July 11, 2000.

5. Food and Drug Administration, Dietary Supplement Enforcement Report. Retrieved from
http://www.fda.gov/oc/nutritioninitiative/report.html, December 27, 2002.

6. Roper Starch Worldwide, Self-Care in the New Millennium, 2001,10. According to this study, 73
percent of people prefer to treat conditions themselves, rather than go to a doctor; furthermore, 59
percent say that they are more likely to treat their own conditions than 12 months ago. In other cases,
consumers are seeing a health care practitioner but not reporting their use of dietary supplements. For
example, another survey revealed that 30 percent of those who reported taking supplements regularly
had not shared this information with their physician. Robert Blendon et al, Americans’ Views on the
Use and Regulation of Dietary Supplements, Archives of Internal Medicine (March 26, 2001), 161:
805-810.

7. Roper Starch Worldwide, Self-Care in the New Millennium, 2001,19.

8. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 32.

9. Ibid., 35-37.

10. Alan Levy and Brenda Derby, Consumer Studies Team. FDA Report on Dietary Supplement
Labeling Focus Groups, September 30, 1999.

11. Seventy-six percent of consumers thought it would be very important for information to appear on a
supplement label about “what a supplement does, for example, helps you sleep, boosts the immune
system.” AARP Public Policy Institute, Dietary Supplements and Older Consumers, Data Digest 66,

Dietary Supplement Labels: Key Elements          21                            OEI-01-01-00120
                                                                                     APPENDIX C



7.

12. Alan Levy and Brenda Derby, Consumer Studies Team. FDA Report on Dietary Supplement
Labeling Focus Groups, September 30, 1999.

13. Respondents thought it would be important to have the following information appear on dietary
supplement labels: information on possible side effects or adverse reactions (82 percent); information
on interactions with prescription and over-the-counter medicines (80 percent); the maximum amount
that is safe to take (81 percent); expiration date (82 percent); and information on whom to contact in
case of an adverse reaction (76 percent). AARP Public Policy Institute, Dietary Supplements and
Older Consumers, Data Digest 66, 3.

14. The Food Committee of the Association of Food and Drug Officials has called for the mandatory
label disclosure of the following items: information regarding any side effects or adverse reactions;
contraindications to warn those consumers who may be adversely affected because of their age,
existing health problems, and risks posed, if pregnant or nursing; if there is a risk of adverse drug and
dietary supplement interaction; and cautionary language to seek health practitioner guidance, if there are
health concerns present. Association of Food and Drug Officials, Resolution Concerning: Safety and
Marketing of Dietary Supplements. June 17, 2001.

The Commission on Dietary Supplement labels recommended that, “Ensuring the safety of supplements
includes the need to provide adequate information and warnings to consumers. The Commission
strongly suggests that dietary supplement manufacturers include appropriate warnings in product
information, where necessary, as specifically permitted by DSHEA. In addition, manufacturers should
recognize the need to advise women who are pregnant or breast-feeding to consult a health
professional about supplement use during pre-and postnatal periods.” Commission on Dietary
Supplement Labels, Report of the Commission on Dietary Supplement Labels, November 1997, vii.

15. The warning on the Ephedra supplement we used during our focus groups contained the following
language: “Not for use by or sale to persons under age 18. Do not use if pregnant or nursing. Consult
a physician or licensed qualified health care professional (“physician”) before product use if you have,
or have a family history of, heart or thyroid disease, diabetes, high blood pressure, recurrent headaches,
depression, any psychiatric condition, glaucoma, difficulty urinating, enlarged prostate, seizure disorder,
if you are using a monoamine oxidase inhibitor (MOAI) or any other dietary supplement, prescription
drug or over-the-counter drug containing ephedrine, pseudoephedrine or phenylpropanolamine
(ingredients found in certain allergy, asthma, cough/cold, and weight control products), or if you intend
on taking to reduce weight. Under Ohio law, the maximum recommended dosage of ephedrine for a
healthy adult is 100 mg in a 24-hour period for not more than 12 weeks. Exceeding recommended
serving may cause serious adverse health effects including heart attack and stroke. Discontinue use and
call a physician immediately if you experience rapid heartbeat, dizziness, severe headache, shortness of
breath or other similar symptoms. Individuals who consume caffeine with this product may experience

Dietary Supplement Labels: Key Elements            22                             OEI-01-01-00120
                                                                                  APPENDIX C



serious adverse health effects. Keep out of reach of children.”

16. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 37-39.

17. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 59-63. The recommended dosage is the most widely read item on a supplement label.
Consumers reported to Prevention Magazine that they look for recommended dosage “always or most
of the time” for vitamins and mineral (89 percent), and for herbal remedies (90 percent).

The AARP also found that “the amount [one] should take” is a very important element that should
appear on dietary supplement labels. Eighty-one percent of their survey respondents stated that it
would be very important to appear on the label. AARP Public Policy Institute, Dietary Supplements
and Older Consumers, Data Digest 66, 7.

18. Prevention Magazine, “National Survey of Consumer Use of Dietary Supplements,” Rodale, Inc.,
1999, 59-63. The expiration date is the second most widely read item on a supplement label.
Consumers told Prevention Magazine that they look for expiration date “always or most of the time” for
vitamins and mineral (74 percent), for herbal remedies (77 percent).

The AARP also found that the “expiration date, that is, the date after which a supplement is no longer
effective” is a very important element that should appear on dietary supplement labels. Eighty-two
percent of their survey respondents stated that the expiration date would be very important to appear
on the label. AARP Public Policy Institute, Dietary Supplements and Older Consumers, Data Digest
66, 7.

19. Center for Drug Evaluation and Research, FDA, Summary of Study A and B (untitled
document). Provided to OIG by the Center for Drug Evaluation and Research in 2001.

20. Department of Commerce, Census Bureau, National Population Projections (Population
Pyramids). Retrieved from http://www.census.gov/population/www/projections/np_p5.gif, March 26,
2002.

21. The Census data from 2000 show that almost 45 million people speak a language other than English
at home, and over 19 million of those speak English less than “very well.” By contrast, in 1990 almost
32 million people spoke a language other than English at home, and 14 million of those spoke English
less than “very well.” Census 2000 Supplementary Survey Summary Table QT-03: Profile of Selected
Social Characteristics: 2000; 1990 Summary Tape File 3 (STF 3) - Sample data – Table DP-2: Social
Characteristics: 1990. Retrieved from http://factfinder.census.gov, May 17, 2002.

22. Alan Levy and Brenda Derby, Consumer Studies Team. FDA Report on Dietary Supplement
Labeling Focus Groups, September 30, 1999.

Dietary Supplement Labels: Key Elements           23                           OEI-01-01-00120
                       ACKNOWLEDGMENTS


This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector General
for Evaluation and Inspections in Boston and Joyce M. Greenleaf, MBA, Assistant Regional Inspector
General. Other principal Office of Evaluation and Inspections staff who contributed include:

Elizabeth Robboy, Project Leader                           Joseph Rutherford, Program Specialist
Chaletta Clark, Program Analyst                            Genevieve Nowolinski, Program Specialist
Sara Schulman, Program Analyst




                         For information or copies of this report, please contact

                                   the Office of Inspector General’s

                                Public Affairs office at (202) 619-1343.


            Reports are also available on the World Wide Web at our home page address:

                                       http://www.oig.hhs.gov/


       Dietary Supplement Labels: Key Elements        24                                 OEI-01-01-00120
